fan

@QCKLE

2311 Douglas Stre : “Mai ,
uglas Street Legal Briefs E-Mail Address:

Omaha, Nebraska 68102-1214
Est. 1923

1-800-225-6964 Web Site

contact@cocklelegalbriefs.com

(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850
No. 20-1639

GEORGE K. YOUNG, JR.,
Petitioner,
v.
STATE OF HAWAIL, et al.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF AMICI CURIAE
FIREARMS POLICY COALITION AND FIREARMS POLICY FOUNDATION IN SUPPORT
OF PETITIONER in the above entitled case complies with the typeface requirement of Supreme
Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point
for the footnotes, and this brief contains 4125 words, excluding the parts that are exempted by
Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 24th day of June, 2021.
1 am duly authorized under the laws of the State of Nebraska to administer oaths.

My Comm. Exp. September 5, 2023

 

omen | Keme 0 thao Ondiaebt Oho

Notary Public Affiant

41126
